No. __________
IN THE

JORGE DE LOS SANTOS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF SERVICE

CUAUHTEMOC ORTEGA
Federal Public Defender
JAMES H. LOCKLIN *
Deputy Federal Public Defender
321 East 2nd Street
Los Angeles, California 90012
Tel: 213-894-2929
Fax: 213-894-0081
Email: James_Locklin@fd.org
Attorneys for Petitioner
* Counsel of Record

I, James H. Locklin, hereby certify that on June 2, 2021, copies of the petitioner’s
Motion for Leave to Proceed in Forma Pauperis, Petition for a Writ of Certiorari to
the United States Court of Appeals for the Ninth Circuit, and Appendices to
Petition for a Writ of Certiorari were mailed, postage prepaid, to the Solicitor
General of the United States, Department of Justice, Room 5616, 950 Pennsylvania
Avenue, N.W., Washington, D.C. 20530-0001, counsel for the respondent.
In addition, copies of these documents were emailed to the Solicitor General at
SupremeCtBriefs@usdoj.gov.

June 2, 2021

Respectfully submitted,
CUAUHTEMOC ORTEGA
Federal Public Defender

JAMES H. LOCKLIN *
Deputy Federal Public Defender
Attorneys for Petitioner
* Counsel of Record

2

